IN THE
SUPREME COURT OF THE UNITED STATES
___________________________
JAMES R.W. MITCHELL—PETITIONER
VS.
MARCUS POLLARD, Warden of Richard J. Donovan Correctional Facility,
an individual —RESPONDENT
PROOF OF SERVICE
I, Steven S. Lubliner, am a member of the Bar of this Court. I declare
that on April 12, 2021, as required by Supreme Court Rule 29, I served the
enclosed
PETITION FOR WRIT OF CERTIORARI TO THE CALIFORNIA
COURT OF APPEAL, FIRST APPELLATE DISTRICT, DIVISION
ONE
APPENDIX TO PETITION FOR WRIT OF CERTIORARI TO THE
CALIFORNIA COURT OF APPEAL, FIRST APPELLATE DISTRICT,
DIVISION ONE
MOTION TO PROCEED IN FORMA PAUPERIS
on each party to the above proceeding or that party’s counsel, and on every
other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of
them with Priority Mail postage prepaid.
The names and addresses of those served are as follows:

David H. Rose, Esq.
California Attorney General
455 Golden Gate Ave., ste. 11000
San Francisco, CA 94102
(415) 510-3853
I further certify that on April 12, 2021, I e-served the above documents
from my e-mail address of sslubliner@comcast.net to Mr. Rose at his e-mail
address of David.Rose@doj.ca.gov.
Pursuant to 28 U.S.C. § 1746, I declare under penalty of perjury under
the laws of the United States of America that the foregoing is true and
correct.
Executed on April 12, 2021 in Petaluma, California.

/s/Steven S. Lubliner

